                                              OFFICE OF WORKERS’
                                              COMPENSATION PROGRAMS

Office of Inspector General—Office of Audit




                                              LONGSHORE AND HARBOR WORKERS’
                                              COMPENSATION ACT SPECIAL FUND
                                              FINANCIAL STATEMENTS AND
                                              INDEPENDENT AUDITORS’ REPORT
                                              September 30, 2010 and 2009


                                               This report was prepared by KPMG, LLP, under contract to the U.S.
                                               Department of Labor, Office of Inspector General, and by acceptance, it
                                               becomes a report of the Office of Inspector General.



                                                                                     __________________________
                                                                                    Assistant Inspector General for Audit


                                                                                   Date Issued:           June 10, 2011
                                                                                Report Number:         22-11-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND


                                      Table of Contents



                                                                                          Page
ACRONYMS                                                                                     iii
Management’s Discussion and Analysis
   Mission and Organizational Structure                                                      1
   Financial Highlights                                                                      2
   Performance Goals and Results                                                             2
   Internal Controls and Systems                                                             3
   Known Risks and Uncertainties                                                             4
   Limitations of the Financial Statements                                                   4
Independent Auditors’ Report                                                                 5
FINANCIAL STATEMENTS
   Balance Sheets                                                                           11
   Statements of Net Cost                                                                   12
   Statements of Changes in Net Position                                                    13
   Statements of Budgetary Resources                                                        14

NOTES TO THE FINANCIAL STATEMENTS
   Note 1 – Summary of Significant Accounting Policies                                      15
   Note 2 – Funds with U.S. Treasury                                                        18
   Note 3 – Investments                                                                     19
   Note 4 – Accounts Receivable, Net                                                        20
   Note 5 – Other Liabilities                                                               21
   Note 6 – Transfers to OWCP                                                               21
   Note 7 – Status of Budgetary Resources                                                   22
   Note 8 – Reconciliation of Budgetary Resources Obligated
            to Net Cost of Operations                                                       23
   Note 9 – Concentration of Risk                                                           23




_________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
i                                                              Report Number: 22-11-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




_________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
ii                                                             Report Number: 22-11-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND


                                          Acronyms



DCCA         District of Columbia Workmen’s Compensation Act

DLHWC        Division of Longshore and Harbor Workers’ Compensation

DOL          Department of Labor

ESA          Employment Standards Administration

FY           Fiscal Year

LHWCA        Longshore and Harbor Workers’ Compensation Act

OMB          Office of Management and Budget

OWCP         Office of Workers’ Compensation Programs

U.S.C.       United States Code




_________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
iii                                                            Report Number: 22-11-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report




                   THIS PAGE HAS BEEN INTENTIONALLY LEFT BLANK




_________________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
iv                                                             Report Number: 22-11-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report


                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                         Management’s Discussion and Analysis
                             September 30, 2010 and 2009




Mission and Organizational Structure

The Longshore and Harbor Workers’ Compensation Act (LHWCA) provides medical
benefits, compensation for lost-wages and rehabilitation services for job-related injuries,
diseases or death of private-sector workers in certain maritime and related employment.
Generally, benefits are paid directly from private funds by an authorized self-insured
employer or through an authorized insurance carrier. Cases meeting the requirements of
the Longshore and Harbor Workers’ Compensation statute are paid from the Longshore
and Harbor Workers’ Compensation Act Special Fund (the Fund) comprised primarily of
employer contributions (assessments) and administered by the Division of Longshore
and Harbor Workers’ Compensation (DLHWC). In fiscal year (FY) 2010 and 2009, 4,202
and 4,376 injured workers and dependents received compensation benefits from the
Fund.

The reporting entity is the Fund. Organizationally the Fund is administered by the DOL,
Office of Workers’ Compensation Programs (OWCP), Division of Longshore and Harbor
Workers’ Compensation program (DLHWC). The DLHWC has direct responsibility for
administration of the Fund. The Fund supports the program mission by providing
compensation, and in certain cases, medical care payments to employees disabled from
injuries which occurred on the navigable waters of the United States, or in adjoining
areas used for loading, unloading, repairing, or building a vessel. The Fund also extends
benefits to dependents if any injury resulted in the employee’s death.

Additionally, Section 10(h) of the LHWCA provides annual wage increase compensation
(cost of living adjustments). Fifty percent of this annual wage increase for pre-1972
compensation cases is paid by Federal appropriated funds, and fifty percent is paid by
the Fund through the annual assessment. Appropriated funding for Section 10(h) is not
reflected in the accompanying financial statements. Appropriated funding is reflected in
the Federal Employees Compensation Act’s Special Benefit Fund.

Administrative services for operating the Fund are provided by the ESA through direct
Federal Appropriations. Appropriated funding for administrative services is not reflected
in the accompanying financial statements.




                                         U.S. Department of Labor – Office of Inspector General
                                           1                 Report Number: 22-11-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report


                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                        Management’s Discussion and Analysis
                             September 30, 2010 and 2009

Financial Highlights

The majority of the revenue of the Fund is generated through annual recurring
assessments paid by self-insured employers and insurance carriers and totaled
$124,592,964 in fiscal year 2010 and $129,934,530 in fiscal year 2009. During fiscal
years 2010 and 2009, recoveries were made for the Fund due to activities involving the
application of Agreed Upon Procedures (AUP) on Forms LS-513, Report of Payments
(used in the calculation of the annual assessment), and negotiation/collection of past due
assessments. The AUP program recovered $801,517 in fiscal year 2010 and $4,904,689
in fiscal year 2009 for the Fund. These recoveries have reduced, and will continue to
reduce, carrier assessments and are reflected in the Assessments line on the Statement
of Changes in Net Position.

Investment income for the Fund was $40,412 for fiscal year 2010 compared to $43,963
for fiscal year 2009. The average interest rate earned during fiscal year 2010 was 0.10%
compared to 0.13% for fiscal year 2009. The Fund’s costs remained relatively stable
compared to fiscal year 2009; $128,248,009 for fiscal year 2010 compared to
$128,991,789 for fiscal year 2009.

The sources of payments into the Fund include: fines and penalties levied under the Act
(44c); payments by employers of $5,000 for each death case where there is no survivor
entitled to the benefits; interest payments on Fund investments; and, by far the largest
source, payment of annual assessments by self-insured employers and insurance
carriers.

Proceeds of the Special Fund are used for payments under: section 8(f) for second
injury claims; section 10(h) for initial and subsequent annual adjustments in
compensation for permanent total disability or related death from injuries which occurred
prior to the effective date of the 1972 LHWCA amendments; sections 39(c) and 8(g) for
the procurement of medical and vocational rehabilitation services for permanently
disabled employees and to provide a maintenance allowance to workers undergoing
rehabilitation; section 18(b) for compensation to injured workers in cases of employer
default; and section 7(e) for the cost of certain medical examinations.

Performance Goals and Results

DLHWC special fund supports the Department of Labor’s Strategic Goal 4 –
Strengthened Economic Protections. This goal broadly promotes the economic security
of workers and families. In particular, the DLHWC program supports Performance Goal
4B – Reduce the Consequences of Work-Related Injuries. The Department of Labor

                                        U.S. Department of Labor – Office of Inspector General
                                          2                 Report Number: 22-11-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report


                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2010 and 2009

plays a large role in ensuring that worker benefits are protected and that employers
administer benefit programs in an appropriate way. The DLHWC program assists in
meeting this outcome goal by establishing the long term performance goal of ensuring
sufficient funds are assessed to fund the annual payments, and by prompt payment to
the beneficiaries. These targets were achieved. The assessments were sufficient to
cover the costs, and no beneficiaries suffered a delayed payment.

Internal Controls and Systems

The Longshore and Harbor Workers’ Compensation Division’s Branch of Financial
Management and Insurance is a very small unit comprised of four employees and one
supervisor, all working in very close proximity to each other. Unethical behavior is
guarded against by carefully segregated duties, carefully assigned roles which are
password protected, and by close supervision. Much of the oversight, evaluation,
monitoring, and control and almost all of the supervisory activity is informal, done on a
face-to-face basis. Similarly, each of the district offices is in itself a small unit, operating
in the same fashion as the Branch of Financial Management and Insurance.

Management communicates all procedural, policy, and operating goals to staff by means
of regular staff meetings, a written procedure manual, frequent e-mail communication,
and frequent individual communications regarding changes, problems and issues.

Statutes provide the formal standards where these are applicable, such as privacy
statutes, cash handling procedures and conflict of interest regulations. All codes,
statutes, and regulations governing the conduct of Federal employees apply to all
Longshore Division employees.

Cases paid by the Special Fund are paid as a result of a formal Compensation Order
issued by a District Director or Administrative Law Judge, setting forth precisely what
payment is due and to whom the payment is due. Each new case coming in for Special
Fund payment is prepared and reviewed by a total of five different employees before
payment is made, thus ensuring accuracy.

With exception of certain internal control deficiencies in the Independent Auditors’
Report, monthly cash basis statements, monthly case management reports, quarterly
review processes, biweekly payment summaries, the SF-224 report and statement of
differences all provide current, reliable, and accurate information.




                                           U.S. Department of Labor – Office of Inspector General
                                             3                 Report Number: 22-11-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report


                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                          Management’s Discussion and Analysis
                               September 30, 2010 and 2009



Known Risks and Uncertainties

The Longshore Special Fund is the single largest payer of indemnity payments under the
Longshore Act. It pays more than double the next largest payer of benefits. Although
there are nearly 525 authorized insurance carriers and self-insured employers, benefit
payments are concentrated among a relatively few. For example, the top 10 carriers and
self-insurers alone pay over one-half of total industry payments excluding Special Fund
payments. If a major carrier or self-insurer fails, the remainder would face substantially
increased assessments.

The Special Fund is reviewed one year at a time for current expenses. There are no
reserve funds for future Special Fund obligations. A series of high value single payment
claims, for example a large number of hearing loss claims resolved in the private sector,
could exceed the predictions used to quantify the assessment. A single, very large claim
from an uninsured, bankrupt employer could have the same effect. Temporary collection
issues could result, necessitating special, unscheduled assessments or other actions to
keep the Special Fund funded for current liabilities.

There are currently no known examples of these risks and uncertainties.

Limitations of the Financial Statements

The following limitations are part of the financial statements:

   The financial statements have been prepared to report the financial position and
    results of operations of the entity, pursuant to the requirements of the Chief Financial
    Officers Act of 1990, United States Code (U.S.C.) 3515 (b).
   While the statements have been prepared from the books and records of the Fund in
    accordance with the formats prescribed by the Office of Management and Budget,
    (OMB), the statements are different from the financial reports used to monitor and
    control budgetary resources which are prepared from the same books and records.
   The statements should be read with the realization that they are for a component of
    the U.S. Government, a sovereign entity, that liabilities cannot be liquidated without
    the enactment of an appropriation, and that the payment of all liabilities other than for
    contracts can be abrogated by the sovereign entity.



                                          U.S. Department of Labor – Office of Inspector General
                                            4                 Report Number: 22-11-004-04-432
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report




                          KPMG LLP
                          2001 M Street, NW
                          Washington, DC 20036-3389




                          Independent Auditors’ Report

Mr. Gary A. Steinberg, Acting Director
Office of Workers’ Compensation Programs, U.S. Department of Labor

We have audited the accompanying balance sheets of the U.S. Department of
Labor’s (DOL) Longshore and Harbor Workers’ Compensation Act Special Fund
(the Fund) as of September 30, 2010 and 2009, and the related statements of
net cost, changes in net position, and budgetary resources (hereinafter referred
to as “financial statements”) for the years then ended. The objective of our audits
was to express an opinion on the fair presentation of these financial statements.
In connection with our fiscal year 2010 audit, we also considered the Fund’s
internal control over financial reporting and tested the Fund’s compliance with
certain provisions of applicable laws and regulations that could have a direct and
material effect on these financial statements.
Summary
As stated in our opinion on the financial statements, we concluded that the
Fund’s financial statements as of and for the years ended September 30, 2010
and 2009, are presented fairly, in all material respects, in conformity with U.S.
generally accepted accounting principles.
Our consideration of internal control over financial reporting resulted in identifying
certain deficiencies that we consider to be a material weakness, as defined in the
Internal Control Over Financial Reporting section of this report, as “Controls Over
the Financial Reporting Process Need Improvement.”
The results of our tests of compliance with certain provisions of laws and
regulations disclosed no instances of noncompliance or other matters that are
required to be reported under Government Auditing Standards, issued by the
Comptroller General of the United States, and Office of Management and Budget
(OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial Statements,
as amended.
The following sections discuss our opinion on the Fund’s financial statements;
our consideration of the Fund’s internal control over financial reporting; our tests
of the Fund’s compliance with certain provisions of applicable laws and
regulations; and management’s and our responsibilities.


                                         U.S. Department of Labor – Office of Inspector General
                                               5             Report Number: 22-11-004-04-432
                           KPMG LLP is a Delaware limited liability partnership,
                           the U.S. member firm of KPMG International Cooperative
                           (“KPMG International”), a Swiss entity.
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report



Opinion on the Financial Statements
We have audited the accompanying balance sheets of the U.S. Department of
Labor’s Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2010 and 2009, and the related statements of net cost, changes
in net position, and budgetary resources for the years then ended.
In our opinion, the financial statements referred to above present fairly, in all
material respects, the financial position of the U.S. Department of Labor’s
Longshore and Harbor Workers’ Compensation Act Special Fund as of
September 30, 2010 and 2009, and its net costs, changes in net position, and
budgetary resources for the years then ended, in conformity with U.S. generally
accepted accounting principles.
The information in the Management’s Discussion and Analysis is not a required
part of the financial statements, but is supplementary information required by
U.S. generally accepted accounting principles. We have applied certain limited
procedures, which consisted principally of inquiries of management regarding the
methods of measurement and presentation of this information. However, we did
not audit this information and, accordingly, we express no opinion on it.
Internal Control Over Financial Reporting
Our consideration of internal control over financial reporting was for the limited
purpose described in the Responsibilities section of this report and was not
designed to identify all deficiencies in internal control over financial reporting that
might be significant deficiencies or material weaknesses and therefore, there can
be no assurance that all deficiencies, significant deficiencies, or material
weaknesses have been identified. However, in our fiscal year 2010 audit, we
identified certain deficiencies in internal control over financial reporting that we
consider to be a material weakness.
A deficiency in internal control exists when the design or operation of a control
does not allow management or employees, in the normal course of performing
their assigned functions, to prevent, or detect and correct misstatements on a
timely basis. A material weakness is a deficiency, or a combination of
deficiencies, in internal control such that there is a reasonable possibility that a
material misstatement of the entity’s financial statements will not be prevented, or
detected and corrected on a timely basis. We consider the deficiencies
described in Exhibit I to be a material weakness.
Compliance and Other Matters
The results of our tests of compliance described in the Responsibilities section of
this report, disclosed no instances of noncompliance or other matters that are
required to be reported herein under Government Auditing Standards or OMB
Bulletin No. 07-04.


                                  U.S. Department of Labor – Office of Inspector General
                                        6             Report Number: 22-11-004-04-432
                          Longshore and Harbor Workers’ Compensation Act Special Fund
                                  Financial Statements and Independent Auditors’ Report




                                       *******
Responsibilities
Management’s Responsibilities. Management is responsible for the financial
statements; establishing and maintaining effective internal control; and complying
with laws and regulations applicable to the Fund.
Auditors’ Responsibilities. Our responsibility is to express an opinion on the
fiscal year 2010 and 2009 financial statements of the Fund based on our audits.
We conducted our audits in accordance with auditing standards generally
accepted in the United States of America; the standards applicable to financial
audits contained in Government Auditing Standards, issued by the Comptroller
General of the United States; and OMB Bulletin No. 07-04. Those standards and
OMB Bulletin No. 07-04 require that we plan and perform the audits to obtain
reasonable assurance about whether the financial statements are free of material
misstatement. An audit includes consideration of internal control over financial
reporting as a basis for designing audit procedures that are appropriate in the
circumstances, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we express no such opinion.
An audit also includes:
    Examining, on a test basis, evidence supporting the amounts and
     disclosures in the financial statements;
    Assessing the accounting principles used and significant estimates made by
     management; and
    Evaluating the overall financial statement presentation.
We believe that our audits provide a reasonable basis for our opinion.
In planning and performing our fiscal year 2010 audit, we considered the Fund’s
internal control over financial reporting by obtaining an understanding of the
Fund’s internal control, determining whether internal controls had been placed in
operation, assessing control risk, and performing tests of controls as a basis for
designing our auditing procedures for the purpose of expressing our opinion on
the financial statements, but not for the purpose of expressing an opinion on the
effectiveness of the Fund’s internal control over financial reporting. Accordingly,
we do not express an opinion on the effectiveness of the Fund’s internal control
over financial reporting. We did not test all controls relevant to operating
objectives as broadly defined by the Federal Managers’ Financial Integrity Act of
1982.




                                   U.S. Department of Labor – Office of Inspector General
                                         7             Report Number: 22-11-004-04-432
                        Longshore and Harbor Workers’ Compensation Act Special Fund
                                Financial Statements and Independent Auditors’ Report




As part of obtaining reasonable assurance about whether the Fund’s fiscal year
2010 financial statements are free of material misstatement, we performed tests
of the Fund’s compliance with certain provisions of laws and regulations,
noncompliance with which could have a direct and material effect on the
determination of the financial statement amounts, and certain provisions of other
laws and regulations specified in OMB Bulletin No. 07-04. We limited our tests of
compliance to the provisions described in the preceding sentence, and we did
not test compliance with all laws and regulations applicable to the Fund.
However, providing an opinion on compliance with laws and regulations was not
an objective of our audit and, accordingly, we do not express such an opinion.
                      ______________________________
The Fund’s response to the finding identified in our audit is presented in Exhibit I.
We did not audit the Fund’s response and, accordingly, we express no opinion
on it.
This report is intended solely for the information and use of DOL’s management,
DOL’s Office of Inspector General, OMB, the U.S. Government Accountability
Office, and the U.S. Congress and is not intended to be and should not be used
by anyone other than these specified parties.



June 10, 2011




                                 U.S. Department of Labor – Office of Inspector General
                                       8             Report Number: 22-11-004-04-432
                       Longshore and Harbor Workers’ Compensation Act Special Fund
                               Financial Statements and Independent Auditors’ Report

                                                                              Exhibit I


Controls Over the Financial Reporting Process Need Improvement


During our FY 2010 audit, we noted that the internal controls over the preparation
and review of the Fund financial statements performed by the Office of Workers’
Compensation Programs (OWCP) Division of Longshore and Harbor Workers’
Compensation program (DLHWC) and Office of the Chief Financial Officer
(OCFO) were not operating effectively.

Specifically we identified the following deficiencies in internal controls over
financial reporting that need to be improved:

   1. Reconciliations between the Fund’s general ledger account balances and
      balances reflected in subsidiary ledgers are not being prepared and reviewed
      consistently throughout the year;
   2. Supervisory review controls, including those over journal entries, are not
      consistently performed;
   3. Controls over the preparation and submission of the SF-224, Statement of
      Transactions, are not consistently completed; and
   4. Controls need to be performed consistently to ensure that differences identified
      by Treasury are resolved on a timely basis.

These deficiencies resulted in material errors in the Fund’s financial statements
that DOL adjusted as a result of our observations.

The Government Accountability Office (GAO), Standards for Internal Control in
the Federal Government states, “Internal control should generally be designed to
assure that ongoing monitoring occurs in the course of normal operations. It is
performed continually and is ingrained in the agency’s operations. It includes
regular management and supervisory activities, comparisons, reconciliations,
and other actions people take in performing their duties.”

GAO’s, Standards for Internal Control in the Federal Government also states,
“Transactions should be promptly recorded to maintain their relevance and value
to management in controlling operations and making decisions. This applies to
the entire process or life cycle of a transaction or event from the initiation and
authorization through its final classification in summary records. In addition,
control activities help to ensure that all transactions are completely and
accurately recorded.”

OMB Circular No. A-123, Management’s Responsibility for Internal Control,
states that “The agency head must establish controls that reasonably ensure that
obligations and costs are in compliance with applicable laws; funds, property,
and other assets are safeguarded against waste, loss, unauthorized use, or
misappropriation; and revenues and expenditures applicable to agency

                                 U.S. Department of Labor – Office of Inspector General
                                       9             Report Number: 22-11-004-04-432
                      Longshore and Harbor Workers’ Compensation Act Special Fund
                              Financial Statements and Independent Auditors’ Report

operations are properly recorded and accounted for to permit the preparation of
accounts and reliable financial and statistical reports . . .”

During the prior fiscal year, OWCP was a component of the Employment
Standards Administration (ESA), which was the agency within DOL responsible
for preparing the Fund’s financial statements. Effective November 8, 2009, the
ESA was abolished and OWCP began reporting directly to the Office of the
Secretary of Labor. OWCP’s accounting staff was also reduced from 5 to 2
professionals during the reorganization. Subsequent to fiscal year end OWCP
hired an additional accounting resource. Additionally, in January 2010, DOL
implemented the New Core Financial Management System (NCFMS) to replace
its legacy accounting and reporting system, the Department of Labor Accounting
and Related Systems (DOLAR$). The implementation of NCFMS required
significant involvement of OWCP’s accounting staff. These staffing reductions
and the increase in demands on the remaining staff prevented OWCP from being
able to dedicate sufficient resources to properly prepare and review the Fund’s
financial statements.

We recommend that DOL improve it’s internal controls over financial reporting to
ensure that:

   1. Reconciliations between the Fund’s general ledger account balances and
      balances reflected in subsidiary ledgers are being prepared and reviewed
      consistently throughout the year;
   2. Supervisory review controls, including those over journal entries are being
      effectively performed;
   3. SF-224’s are being thoroughly reviewed prior to submission to Treasury;
      and
   4. Differences identified by Treasury are resolved on a timely basis.


Management’s Response:

DOL management concurs with the findings and corrective action will be taken
and completed in the current fiscal year.

Auditors’ Response:

FY 2011 audit procedures will determine whether these recommendations have
been adequately addressed and can be considered closed.




                                U.S. Department of Labor – Office of Inspector General
                                      10            Report Number: 22-11-004-04-432
                                      Longshore and Harbor Workers’ Compensation Act Special Fund
                                              Financial Statements and Independent Auditors’ Report




                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                         Balance Sheets
                                 September 30, 2010 and 2009


                           Assets                                   2010              2009
Intra-governmental assets:
   Funds with U.S. Treasury (Note 2)                         $    1,333,422        2,085,008
   Investments (Note 3)                                          60,579,000       58,969,000
            Total intra-governmental assets                      61,912,422       61,054,008
Accounts receivable, net of allowance (Note 4)                  3,025,359          3,756,224
           Total assets                                      $ 64,937,781         64,810,232
               Liabilities and Net Position
Liabilities:
  Accrued benefits payable (Note 1f )                               354,421               —
  Expenditure Transfers Payable (Note 6)                          2,124,000               —
  Deferred revenue                                               30,946,645       31,074,977
  Other liabilities (Note 5)                                     10,393,535        7,330,991
            Total liabilities                                    43,818,601       38,405,968
Net position:
  Cumulative results of operations                             21,119,180         26,404,264
            Total liabilities and net position               $ 64,937,781         64,810,232


See accompanying notes to financial statements.




      ____________________________________________________________________________________
                                            U.S. Department of Labor – Office of Inspector General
                                         11                     Report Number: 22-11-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                     Statements of Net Cost
                          Years ended September 30, 2010 and 2009


                                                                   2010                 2009
Special fund net cost of operations:
  Second injury compensation, Section 8(f)                 $    116,078,379         116,738,199
  Wage increase compensation, Section 10(h)                       1,484,105           1,656,152
  Compensation payment for self-insurer in default,
    Section 18(b)                                                 6,739,775           6,992,915
  Rehabilitation services, Section 39 (c)                         3,183,165           2,831,728
  Medical Services (e)                                                  500               3,500
  Bankrupt self-insured employers                                   762,085             769,295
            Net cost of operations                         $    128,248,009         128,991,789


See accompanying notes to financial statements.




      ____________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
                                          12                   Report Number: 22-11-004-04-432
                                    Longshore and Harbor Workers’ Compensation Act Special Fund
                                            Financial Statements and Independent Auditors’ Report




                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                             Statements of Changes in Net Position
                          Years ended September 30, 2010 and 2009


                                                                   2010                 2009
Cumulative results of operations, beginning               $     26,404,264           27,244,357
Budgetary financing sources:
  Transfers in/out without reimbursement (note 6)                (2,124,000)         (2,101,000)
  Non-exchange revenues:
    Interest                                                        40,412               43,963
    Fines and Penalties                                            453,549              274,203
    Assessments                                                124,592,964          129,934,530
            Total non-exchange revenues                        125,086,925          130,252,696
Total financing sources                                        122,962,925          128,151,696
Net cost of operations                                      (128,248,009)          (128,991,789)
            Net position, end of period                   $   21,119,180             26,404,264


See accompanying notes to financial statements.




      ____________________________________________________________________________________
                                           U.S. Department of Labor – Office of Inspector General
                                        13                     Report Number: 22-11-004-04-432
                                Longshore and Harbor Workers’ Compensation Act Special Fund
                                        Financial Statements and Independent Auditors’ Report




                         LONGSHORE AND HARBOR WORKERS’
                          COMPENSATION ACT SPECIAL FUND
                             Statements of Budgetary Resources
                         Years ended September 30, 2010 and 2009


                                                                   2010                2009
Budgetary resources:
  Unobligated balance, brought forward                    $     61,053,982          58,069,554
  Budget authority
    Appropriations received (assessments)                     127,343,949          133,971,646
    Spending authority from offsetting collections                     —                    —
  Temporary not available pursuant to Public Law                       —                    —
           Total budgetary resources                      $   188,397,931          192,041,200
Status of Budgetary Resources:
  Obligations Incurred (Note 7)
     Direct                                               $   128,414,234          130,987,218
  Unobligated balances - available:
     Apportioned
     Other available - exempt from apportionment               59,983,697           61,053,982
            Total status of budgetary resources           $   188,397,931          192,041,200
Change in obligated balance:
  Obligated balance, net
    Unpaid obligations, brought forward, October 1        $             —            4,570,584
  Obligations Incurred, net                                    128,414,234         130,987,218
  Less: Gross Outlays                                         (125,935,813)       (135,557,802)
  Obligated balance, net, end of period
    Unpaid obligations                                    $      2,478,421                      —
Outlays:
 Gross Outlays                                            $   125,935,813          135,557,802
 Less: Offsetting collections                                          —                    —
 Net outlays                                              $   125,935,813          135,557,802


See accompanying notes to financial statements.




____________________________________________________________________________________
                                     U.S. Department of Labor – Office of Inspector General
                                  14                     Report Number: 22-11-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                        Years ended September 30, 2010 and 2009


(1)   Summary Of Significant Accounting Policies
      The principal accounting policies which have been followed by the Fund in
      preparing the accompanying financial statements are set forth below.
      (a)   Reporting Entity
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (the Fund). The Fund is
            administered by the DOL, Office of Workers’ Compensation Programs
            (OWCP), Division of Longshore and Harbor Workers’ Compensation program
            (DLHWC). The DLHWC has direct responsibility for administration of the Fund.
            The Fund offers compensation, and in certain cases, medical care payments to
            employees disabled from injuries which occurred on the navigable waters of
            the United States, or in adjoining areas used for loading, unloading, repairing,
            or building a vessel. The Fund also extends benefits to dependents if any
            injury resulted in the employee’s death.
            Additionally, the Longshore and Harbor Workers’ Compensation Act [Section
            10(h)] provides annual wage increase compensation (cost of living
            adjustments). Fifty percent of this annual wage increase for pre-1972
            compensation cases is paid by Federal appropriated funds and fifty percent is
            paid by the Fund through the annual assessment. Appropriated funding for
            10(h) is not reflected in the accompanying financial statements. Appropriated
            funding is reflected in the Federal Employees Compensation Act’s Special
            Benefit Fund.

      (b)   Basis of Accounting and Presentation
            These financial statements present the financial position, net cost of
            operations, changes in net position and budgetary resources of the Longshore
            and Harbor Workers’ Compensation Act Special Fund (the Fund), in
            accordance with U.S. generally accepted accounting principles and the form
            and content requirements of OMB Circular A-136. These financial statements
            have been prepared from the books and records of the Fund. These financial
            statements are not intended to present, and do not present, the full cost of the
            Longshore and Harbor Workers’ Compensation Act Program (Longshore
            Program). In addition to the Fund costs presented in these statements, the full
            cost of the Longshore Program would include certain direct costs of OWCP in

 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                    15                     Report Number: 22-11-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report



                       LONGSHORE AND HARBOR WORKERS’
                        COMPENSATION ACT SPECIAL FUND
                            Notes to the Financial Statements
                       Years ended September 30, 2010 and 2009


          the form of salaries and expenses for administration of the Longshore Program
          and allocated costs of OWCP and other DOL agencies incurred in support of
          the Longshore Program. The full cost of the Longshore Program is included in
          the DOL consolidated financial statements and related notes. The Fund is
          considered a fiduciary activity of DOL and is properly disclosed and reported in
          the consolidated financial statements of DOL as a fiduciary fund.
          U.S. generally accepted accounting principles encompass both accrual and
          budgetary transactions. Under accrual accounting, revenues are recognized
          when earned, and expenses are recognized when a liability is incurred.
          Budgetary accounting facilitates compliance with legal constraints on, and
          controls over, the use of federal funds. These financial statements are different
          from the financial reports, also prepared for the Fund pursuant to OMB
          directives, used to monitor the Fund’s use of budgetary resources.
    (c)   Funds with U.S. Treasury
          The Fund does not maintain cash in commercial bank accounts. Cash receipts
          and disbursements are processed by the U.S. Treasury. The Fund balance
          with U.S. Treasury is a trust fund that is available to pay current liabilities and
          finance authorized purchase commitments.
    (d)   Investments
          Investments in U.S. Government securities are reported at cost, net of
          unamortized premiums or discounts, which approximate market value.
          Premiums or discounts are amortized on a straight-line basis, which
          approximates the effective interest method. The Fund’s intent is to hold
          investments to maturity, unless they are needed to finance claims or otherwise
          sustain the operations of the Fund. No provision is made for unrealized gains
          or losses on these securities because they are held to maturity.




____________________________________________________________________________________
                                      U.S. Department of Labor – Office of Inspector General
                                   16                     Report Number: 22-11-004-04-432
                               Longshore and Harbor Workers’ Compensation Act Special Fund
                                       Financial Statements and Independent Auditors’ Report



                      LONGSHORE AND HARBOR WORKERS’
                       COMPENSATION ACT SPECIAL FUND
                           Notes to the Financial Statements
                      Years ended September 30, 2010 and 2009


    (e)   Accounts Receivable, Net of Allowance
          The amounts due as receivables are stated net of an allowance for
          uncollectible accounts. The allowance is estimated based on past experience
          in the collection of the receivables and an analysis of the outstanding
          balances. Accounts receivable are comprised of assessments receivable and
          Fund benefit overpayments made to individuals primarily from amended
          compensation orders and corrections of payment computations.
    (f)   Accrued Benefits Payable
          The Fund provides compensation and medical benefits for work related injuries
          to workers in certain maritime employment. The Fund recognizes a liability for
          disability benefits payable to the extent of unpaid benefits applicable to the
          current period. It does not include a liability for incurred but not reported
          claims. Ultimate responsibility for payment of such claims rests with the
          employer organizations. Accrued disability benefits payable as of September
          30, 2010 amounted to $354,421. All disability payments due and payable as of
          September 30, 2009 were paid as of September 30, 2009.
    (g)   Deferred Revenue
          Deferred revenues represent the unearned assessment revenue as of
          September 30, the Fund’s accounting year end. The annual assessments
          cover a calendar year and, accordingly, the portion extending beyond
          September 30 has been deferred. Deferred revenues reported on the balance
          sheets are considered “Other Liabilities” under OMB Circular A-136.
    (h)   Financing Sources Other Than Exchange Revenue
          Non-exchange revenues arise from the Federal government’s power to
          demand payments from and receive donations from the public. Non-exchange
          revenues are recognized by the Fund for assessments and penalties levied
          against the public and interest income from investments.
          The Fund’s primary source of revenue is annual assessments levied on
          insurance carriers and self-insured employers. Assessments are recognized as
          non-exchange revenue when due. Included in assessment revenues in the
          accompany Statement of Changes and Net Position are recoveries of amounts
          based on previously under-reported payments by self-insures or carriers.
          Recoveries are recognized when final agreement is reached with the carriers.

____________________________________________________________________________________
                                      U.S. Department of Labor – Office of Inspector General
                                   17                     Report Number: 22-11-004-04-432
                                   Longshore and Harbor Workers’ Compensation Act Special Fund
                                           Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                               Notes to the Financial Statements
                       Years ended September 30, 2010 and 2009


            These reassessments primarily result from the application of Agreed Upon
            Procedures (AUP) on reported carrier data. Recoveries amounted to $801,517
            and $4,904,689 for the fiscal years ended September 30, 2010 and 2009,
            respectively. Recoveries reduce carrier assessments and are reflected in the
            assessments line on the Statement of Changes in Net Position. The Fund
            receives interest on Fund investments and on Federal funds in the possession
            of non-Federal entities. The Fund also receives revenue from penalties
            assessed in accordance with various sections of the LHWCA.


(2)   Funds with U.S. Treasury
      Funds with U.S. Treasury at September 30, 2010 and 2009 consisted of cash
      deposits of $1,333,422 and $2,085,008, respectively. These cash deposits at
      September 30, 2010 and 2009 included $361 and $168, respectively, which are
      being held as security by authority of Section 32 of the Longshore and Harbor
      Workers’ Compensation Act. These funds relate to the default of self-insured
      employers, and are available for payment of compensation and medical benefits to
      covered employees of the defaulted companies.
      Funds with U.S. Treasury at September 30, 2010 consisted of the following:
                                                Entity Assets
                           Unobligated   Unobligated     Obligated
                            Balance       Balance       Balance Not    Total       Non-entity
      (In Dolars)           Available    Unavailable Yet Disbursed Entity Assets    Assets       Total

      Special Fund     $           —             —      1,333,422     1,333,422           —     1,333,422



      Funds with U.S. Treasury at September 30, 2009 consisted of the following:
                                                Entity Assets
                           Unobligated   Unobligated     Obligated
                            Balance       Balance       Balance Not    Total       Non-entity
      (In Dollars)          Available    Unavailable Yet Disbursed Entity Assets    Assets       Total

      Special Fund     $           —             —      2,085,008     2,085,008           —     2,085,008




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                    18                     Report Number: 22-11-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                           Years ended September 30, 2010 and 2009




(3)   Investments
      Investments at September 30, 2010 and 2009 consisted of the following:
                                                          September 30, 2010
                                           Face        Premium           Net           Market
      (In Dollars)                         Value      (Discount)        Value          Value
      Intragovernmental securities:
         Marketable                 $    60,579,000          —       60,579,000      60,579,000


                                                           September 30, 2009
                                            Face        Premium           Net          Market
       (In Dollars)                         Value      (Discount)        Value         Value
       Intragovernmental securities:
          Marketable                 $   58,969,000          —        58,969,000      58,969,000

      Investments of $7,403,123 and $7,330,823 at September 30, 2010 and 2009,
      respectively, are being held as security by authority of Section 32 of the Longshore
      and Harbor Workers’ Compensation Act. These investments are available for
      payment of compensation and medical benefits to covered employees of the
      defaulted companies. Investments at September 30, 2010 and 2009 consist of
      overnight securities. Investments at September 30, 2010 bear an interest rate of
      0.08% compared to an interest rate of 0.07% for September 30, 2009. Interest rates
      on securities bought and sold during fiscal year 2010 ranged from 0.01% to 0.17%
      compared to 0.01% to 1.03% for fiscal year 2009.




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                    19                     Report Number: 22-11-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                          LONGSHORE AND HARBOR WORKERS’
                           COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                         Years ended September 30, 2010 and 2009


(4)   Accounts Receivable, Net
      Accounts receivable at September 30, 2010 and 2009 consisted of the following:
      (In Dollars)                                                      2010               2009
      Benefit overpayments                                     $    1,774,485             2,246,930
      Assessments receivable                                        1,800,088             2,564,757
      Less: allowance for doubtful accounts                          (549,214)           (1,055,463)
            Total accounts receivable from the public, net     $    3,025,359            3,756,224


      Assessments receivable represent the unpaid annual assessments from the current
      and prior years. Accounts receivable from overpayments to claimants arise primarily
      from amended compensation orders and corrections of payment computations.
      These receivables are being primarily recovered by partial and total withholding of
      benefit payments.
      Changes in the allowance for doubtful accounts during fiscal year 2010 and fiscal
      year 2009 consisted of the following:
                                                                   2010
                                   Allowance       Write      Revenue                        Allowance
      (In Dollars)               October 1, 2009   Offs      Adjustment    Bad Debt      September 30, 2010

      Entity assets:
        Benefit overpayments $        (927,225)       —             —          423,013             (504,212)
        Assessment receivable         (128,238)       —             —           83,236              (45,002)

                            $        (1,055,463)      —             —          506,249             (549,214)

                                                                   2009
                                   Allowance       Write      Revenue                        Allowance
      (In Dollars)               October 1, 2008   Offs      Adjustment    Bad Debt      September 30, 2009

      Entity assets:
        Benefit overpayments $        (960,832)        —            —           33,607             (927,225)
        Assessment receivable         (344,499)    36,107           —          180,154             (128,238)

                            $        (1,305,331)   36,107           —          213,761            (1,055,463)




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                    20                     Report Number: 22-11-004-04-432
                                     Longshore and Harbor Workers’ Compensation Act Special Fund
                                             Financial Statements and Independent Auditors’ Report



                           LONGSHORE AND HARBOR WORKERS’
                            COMPENSATION ACT SPECIAL FUND
                                 Notes to the Financial Statements
                           Years ended September 30, 2010 and 2009


(5)   Other Liabilities
      Other liabilities at September 30, 2010 and 2009 consisted of the following current
      liabilities:
      (In Dollars)                                                   2010              2009
      Other liabilities:
        Assessment overpayments by carriers                   $    2,990,051                  —
        Defaulted employer liability:
           Held in investments                                     7,403,123         7,330,823
           Held in cash                                                  361               168
                                                                   7,403,484         7,330,991
                     Total other liabilities                  $   10,393,535         7,330,991


      Assessment overpayments are to be refunded upon request or applied to reduce
      future assessments.
      Defaulted employer liability relates to funds and investments held by the Longshore
      Special Fund which are being held as security by authority of Section 32 of the Act.
      These funds and investments are available for compensation and medical benefits
      to covered employees of the defaulted companies.
(6)   Transfers to OWCP
      The Fund reimburses the Office of Workers’ Compensation Programs (OWCP) (a
      related entity within the Department of Labor) for rehabilitation services provided to
      eligible claimants and certain direct expenses associated with administrative
      support of the Fund. Approved transfers out to the OWCP were $2,124,000 in 2010
      and $2,101,000 in 2009. Transfers are made from the Special Fund in accordance
      with sections 39(c), 44(d), and 44(j) of the Longshore and Harbor Workers’
      Compensation Act.
      As of September 30, 2010, the fiscal year 2010 approved transfers of $2,124,000
      were not actually accomplished. Therefore, an Expenditure Transfers Payable has
      been established.




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                     21                    Report Number: 22-11-004-04-432
                                       Longshore and Harbor Workers’ Compensation Act Special Fund
                                               Financial Statements and Independent Auditors’ Report



                            LONGSHORE AND HARBOR WORKERS’
                             COMPENSATION ACT SPECIAL FUND
                                    Notes to the Financial Statements
                            Years ended September 30, 2010 and 2009


(7)   Status of Budgetary Resources
      (a)   Apportionment Categories of Obligations Incurred
             (In Dollars)                                               2010              2009
             Direct Obligations:
               Exempt from apportionment                         $ 128,414,234      130,987,218


      (b)   Explanation of Differences Between the Statement of Budgetary
            Resources and the Budget of the United States Government
            A reconciliation of budgetary resources, obligations incurred and outlays, as
            presented in the Statement of Budgetary Resources to amounts included in the
            Budget of the United States Government for the year ended September 30,
            2009 is shown below:
                                                                              2009
                                                                Budgetary   Obligations
            (Dollars in Millions)                               Resources    Incurred      Outlays
            Statement of Budgetary Resources - LSHW         $       192           131         136
            Statement of Budgetary Resources - DCCA                  16            10            10
            Total Statement of Budgetary Resources                  208           141         146

            Budget of the United States Government          $       208           141         146




 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                     22                    Report Number: 22-11-004-04-432
                                 Longshore and Harbor Workers’ Compensation Act Special Fund
                                         Financial Statements and Independent Auditors’ Report



                        LONGSHORE AND HARBOR WORKERS’
                         COMPENSATION ACT SPECIAL FUND
                             Notes to the Financial Statements
                       Years ended September 30, 2010 and 2009


(8)   Reconciliation of Budgetary Resources Obligated to Net Cost of Operations


                                                                  2010              2009
Budgetary resources obligated:
  Obligations incurred                                      $ 128,414,234      130,987,218
Other resources:
  Transfers out                                                          —       (2,101,000)
           Total resources used to finance activities         128,414,234      128,886,218
Resources used to finance items not part of the
      net cost of operations
  Resources that finance the acquisition of assets                       —                 —
           Total resources used to finance items not part
             of the net cost of operations                               —                 —
           Total resources used to finance the net cost
             of operations                                    128,414,234      128,886,218
Components not requiring or generating resources:
  Revaluation of assets and liabilities                          (423,013)          (33,607)
  Benefit overpayments                                            256,788           139,178
           Total components of net cost of operations
             that will not require or generate resources
                 in the current period                           (166,225)         105,571
           Net cost of operations                           $ 128,248,009      128,991,789




 (9) Concentration of Risk
      The Fund makes assessments to authorized insurers and self-insurers one year at
      a time for current expenses; there is no reserve for future Fund obligations. In
      keeping with the requirement of section 44 of the Longshore Act, obligations are
      paid as they are incurred. Assessments are based on compensation and medical
      benefits paid in the prior calendar year.



 ____________________________________________________________________________________
                                       U.S. Department of Labor – Office of Inspector General
                                     23                    Report Number: 22-11-004-04-432
